IN THE
SUPREME CURT OF THE UNITED STATES

PAUL R. HANSMEIER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PROOF OF SERVICE

I declare that on this date, July 7, 2021, as required by Supreme Court Rule
29, I have caused to be served the enclosed:
1.

Motion for Leave to Proceed In Forma Pauperis;

2.

Petition for Writ of Certiorari;

3.

Appendix to Petition for Writ of Certiorari;

Service was made to each party to the above proceeding or that party's counsel by
depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid. The names
and addresses of those served are:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave., N.W., Room 5616
Washington, D.C. 20530-0001

1

All parties required to be served have been served. I declare under penalty of perjury
that the foregoing is true and correct.
Dated: July 7, 2021

~—
ANDREW . MOHRING
Attorney Registration No. 190731
Banks Building
615 1st Avenue NE, Suite 42~
Minneapolis, MN 55413
(612) 874-1552
ATTORNEY FOR DEFENDANT

2

